U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 22, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Patrick Emanuel Sutherland v. United States of America,
S.CtNo. 19-433

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
30, 2019, and placed on the docket on October 2, 2019. The government's response is due on
November 1, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 2, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0433
SUTHERLAND, PATRICK EMANUEL
USA

BARRY J. POLLACK
ROBB1NS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, NW
WASHINGTON, DC 20006
202-775-4500
BPOLLACK@ROBBINSRUS SELL. COM

